Department of Health and Human Services
                  OFFICE OF 

             INSPECTOR GENERAL 





 WAYNE STATE UNIVERSITY 

CLAIMED ALLOWABLE COSTS 

UNDER NATIONAL INSTITUTES 

    OF HEALTH GRANT 

    NO. R01NS039860



 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov. 
                                         




                                                   Sheri L. Fulcher

                                              Regional Inspector General 


                                                    September 2013

                                                     A-05-13-00041 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters. 

                                         INTRODUCTION 


 Wayne State University claimed allowable costs under the terms of its NIH grant and
 applicable Federal regulations.

WHY WE DID THIS REVIEW

Oversight and management of grant programs is crucial to the U.S. Department of Health and
Human Services’ (HHS) mission and to the health and well-being of the public. Audits of
National Institutes of Health (NIH) and other HHS grantees have found internal control
deficiencies, problems with financial stability, inadequate organizational structures, inadequate
procurement and property management policies, and inadequate personnel policies and
procedures.

OBJECTIVE

Our objective was to determine whether costs claimed by Wayne State University were
allowable under the terms of the grant and applicable Federal regulations.

BACKGROUND

The NIH is the steward of medical and behavioral research for the nation. Its mission is science
in pursuit of fundamental knowledge about the nature and behavior of living systems and the
application of that knowledge to extend healthy life and reduce the burdens of illness and
disability. Research supported through the issuance of grants and cooperative agreements enable
NIH to fulfill its mission to make medical discoveries that improve health and save lives.

NIH grants and cooperative agreements are awarded as discretionary grants. NIH has the
authority to determine the recipient of the grant and/or cooperative agreement and the amount
awarded. NIH programs are legislatively authorized by Congress, which also defines the
purpose and policy, authorization of appropriations, allotment of funds, limitation on assistance,
and other things, for the programs. Furthermore, each Institute and Center establishes specific
goals for the unit, grant programs, and activities.

Wayne State University (the grantee), founded in 1868, is a nationally recognized metropolitan
research institution located in Detroit, Michigan. NIH awarded $1,704,751 to the grantee to
support efforts for the research grant project R01NS039860 entitled “Control of Microvascular
Tone in Traumatic Brain Injury.” The grantee claimed $856,552 ($564,839 direct costs and
$291,713 indirect costs) under the NIH grant for the period of May 1, 2007, through April 30,
2010.

HOW WE CONDUCTED THIS REVIEW

We limited our review to $358,384 in costs claimed by the grantee for NIH grant R01NS039860.
Specifically, we reviewed $66,671 of the direct costs and $291,713 of the indirect costs that were
claimed by the grantee for the period of May 1, 2007, through April 30, 2010. We did not perform


Wayne State University Claimed Allowable Costs Under NIH Grant No. R01NS039860 (A-05-13-00041)       1
an overall assessment of the grantee’s internal control structure. Rather, we limited our evaluation
of the grantee’s accounting system to (1) obtaining an understanding of internal control as it relates
to the specific objective and scope of the audit, and (2) reviewing the grantee’s financial audits
performed by an independent auditor.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology. Appendix B contains details on
the Federal requirements related to NIH grantees.

We conducted field work at the grantee’s administrative office in Detroit, Michigan during June
2013.

                                      RESULTS OF REVIEW

The $358,384 in costs covered by our review were allowable under the terms of the grant and
applicable Federal regulations. Accordingly, this report contains no recommendations.




Wayne State University Claimed Allowable Costs Under NIH Grant No. R01NS039860 (A-05-13-00041)     2
                       APPENDIX A: SCOPE AND METHODOLOGY 


SCOPE 


We limited our review to $358,384 in costs claimed by the grantee for NIH grant R01NS039860.
Specifically, we reviewed $66,671 of the direct costs and $291,713 of the indirect costs that were
claimed by the grantee for the period of May 1, 2007, through April 30, 2010. We did not perform
an overall assessment of the grantee’s internal control structure. Rather, we limited our evaluation
of the grantee’s accounting system to (1) obtaining an understanding of internal control as it relates
to the specific objective and scope of the audit, and (2) reviewing the grantee’s financial audits
performed by an independent auditor.

We conducted field work at the grantee’s administrative office in Detroit, Michigan during June
2013.

METHODOLOGY

To accomplish our objective, we:

    	 reviewed applicable Federal laws, regulations, and program guidance;

    	 reviewed the grantee’s policies and procedures on finance, payroll, travel, and internal
       controls;

    	 reviewed the grantee’s independent auditor’s reports for fiscal years 2010, 2011 and 

       2012; 


    	 interviewed grantee officials;

    	 reconciled the expenditure report to the amount claimed on the final Federal Financial
       Report (SF-425);

    	 summarized costs by cost category from the expenditure report;

    	 compared budgeted and actual expenditures;

    	 verified whether the claimed indirect costs and fringe benefits were accurately computed
       using the negotiated indirect cost rates and fringe benefit rates; and

    	 judgmentally selected and reviewed a total of $358,384 in costs claimed under the grant
       for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



Wayne State University Claimed Allowable Costs Under NIH Grant No. R01NS039860 (A-05-13-00041)     3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Wayne State University Claimed Allowable Costs Under NIH Grant No. R01NS039860 (A-05-13-00041)   4
      APPENDIX B: FEDERAL REQUIREMENTS FOR NATIONAL INSTITUTES 

                         OF HEALTH GRANTEES


Federal Regulations and National Institutes of Health Policies

The allowability of costs incurred by institutions of higher education are determined in
accordance with the cost principles contained in 2 CFR pt. 220 (Office of Management and
Budget (OMB) Circular A-21), Cost Principles for Educational Institutions, as required by
45 CFR § 74.27.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (Grants Policy Statement). The Grants Policy Statement provides NIH grantees, in a
single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.




Wayne State University Claimed Allowable Costs Under NIH Grant No. R01NS039860 (A-05-13-00041)      5
